DOE/IG-0539




        AUDIT                      PASSIVE MAGNETIC RESONANCE
       REPORT                          ANOMALY MAPPING AT
                                 ENVIRONMENTAL MANAGEMENT SITES




                                               JANUARY 2002




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                 U. S. DEPARTMENT OF ENERGY
                                       Washington, DC 20585

                                           January 11, 2002




MEMORANDUM FOR SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Passive Magnetic Resonance Anomaly
                         Mapping at Environmental Management Sites"

BACKGROUND

The Department of Energy's Office of Environmental Management supports the development and
deployment of innovative environmental cleanup technologies. Environmental Management's Office of
Science and Technology (OST) manages and directs a national program that provides the scientific
foundation, new approaches, and new technologies that are intended to significantly reduce the risk, cost, and
schedule for completion of the Department's cleanup mission. OST's policy is to perform peer reviews to
evaluate the technical merit and plausibility of new technologies prior to expending Department resources on
field tests.

In January 2000, several Environmental Management field sites began conducting tests of Passive Magnetic
Resonance Anomaly Mapping (PMRAM). PMRAM is a non-intrusive characterization technology that
attempts to map the underground location of groundwater, faults, fractures, buried objects, and chemicals.
This technology is unique in that it combines an electronic system and a human operator into a single
bio-sensory unit by connecting the operator at the wrists to an electronic system, which is harnessed to the
body. The technology relies on the ability of the world's only qualified operator, a resident of the Ukraine, to
sense changes in magnetic fields.

The objective of the audit was to determine whether the OST evaluated the technical merit and plausibility of
PMRAM technology before field tests began.

RESULTS OF AUDIT

The Department spent over $400,000 to field test PMRAM prior to any OST evaluation of the merits and
plausibility of the technology. In fact, OST was not even aware that field tests of the PMRAM technology
had been conducted until Fiscal Year (FY) 2001.

In FY 2001, OST funding was requested to continue testing PMRAM at other Environmental Management
field locations. Once funding was requested, OST performed a peer review of the PMRAM technology. The
peer review concluded that the technology:

   •   appeared to be implausible;
   •   did not allow for a scientifically-based evaluation;
   •   provided no useful information during the three field demonstrations; and,
   •   appeared inadequate as a site-characterization tool.

We concluded that, had a peer review been performed prior to testing, the Department could have avoided
spending over $400,000 on this technology.

The report includes several recommendations designed to ensure compliance with the Department's
philosophy of evaluating the viability of new technologies before they are implemented in costly field tests.

MANAGEMENT REACTION

Management agreed with the audit finding and agreed to implement corrective actions to address specific
recommendations included in the report. Further, management stated that field testing of the PMRAM
technology has been discontinued.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
PASSIVE MAGNETIC RESONANCE ANOMALY MAPPING AT
ENVIRONMENTAL MANAGEMENT SITES


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations.................................................. 1


                 Field Tests

                 Details of Finding.......................................................................3

                 Recommendations and Comments ...........................................5


                 Appendices

                 Scope and Methodology.............................................................6

                 Management's Comments..........................................................7
OVERVIEW

INTRODUCTION AND   The Office of Science and Technology (OST), located within the
OBJECTIVE          Department of Energy's (Department) Office of Environmental
                   Management (EM) supports the development and deployment of
                   innovative environmental cleanup technologies. The mission of the
                   OST is to manage and direct a national, solution-oriented science and
                   technology program that provides the scientific foundation, new
                   approaches, and new technologies that bring about significant
                   reductions in risk, cost, and schedule for completion of the
                   Department’s cleanup mission. The OST's policy is to perform peer
                   reviews to evaluate the technical merit and plausibility of new
                   technologies before investing in field tests.

                   In January 2000, the EM began conducting field tests of Passive
                   Magnetic Resonance Anomaly Mapping (PMRAM). PMRAM is a
                   characterization technology that attempts to map the underground
                   location of groundwater, faults, fractures, buried objects, and chemicals.
                   This non-intrusive technology combines an electronic system and a
                   human operator into a single bio-sensory unit. As illustrated on page 3
                   of this report, the operator is connected at the wrists to the electronic
                   system, which is harnessed to the body. The technology relies on the
                   ability of the operator to sense changes in magnetic fields. As of
                   September 2000, the world's only qualified operator was a resident of
                   the Ukraine. Specifics on the interaction between the operator and the
                   electronic system are considered proprietary or have not been
                   developed.

                   The objective of the audit was to determine whether the OST evaluated
                   the technical merit and plausibility of PMRAM technology before field
                   tests began.

                   The OST did not evaluate the technical merits and plausibility of
CONCLUSIONS AND    PMRAM technology before field tests began. EM sites were not
OBSERVATIONS       required to obtain peer reviews from the OST unless OST funds were
                   used for the field tests. In this case, OST funds were not required; thus,
                   a peer review was not performed. However, the OST performed a peer
                   review after the field tests were completed and concluded that the
                   PMRAM technology "appears to be implausible" and does not allow for
                   a scientifically based evaluation. As a result, the Department incurred
                   $408,750 in avoidable costs for field tests of PMRAM technology.




Page 1                                                         Introduction and Objective
         In April 1998, the Office of Inspector General issued Report DOE/IG-
         0419, The Department of Energy's Peer Review Practices, which
         evaluated whether the Department had established and was managing a
         peer review process for evaluating scientific and technical projects. The
         report concluded that at the three laboratories reviewed, the Department
         had established and was managing a peer review process in accordance
         with administration policy and Office of Management and Budget
         requirements for scientific and technical projects.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                        (Signed)
                                              Office of Inspector General




Page 2                                          Conclusions and Observations
FIELD TESTS


Field Tests Were       Three EM sites performed field tests of PMRAM technology before
Performed Before       OST evaluated its technical merit and plausibility. The tests were
OST Evaluated          conducted at the East Tennessee Technology Park (ETTP) in Oak
PMRAM Technology       Ridge, Tennessee, and the Fernald and Ashtabula Environmental
                       Management Projects (FEMP and AEMP) in Ohio, between January
                       2000 and July 2000. The objective of the field tests was to determine if
                       PMRAM technology could locate contaminated areas non-intrusively.
                       The field tests did not confirm that the technology was feasible. For
                       example, the final report prepared by Bechtel Jacobs Company LLC
                       regarding the performance evaluation at ETTP concluded "there is
                       probably no application to soils at this time." Additionally, the report
                       states "results indicate PMRAM could be considered as a screening tool
                       to determine the presence of VOC-contaminated groundwater;
                       however, it is likely to underestimate the extent of the contamination."


                                     PMRAM Field Testing Activities at ETTP




OST's Policy Is to     The OST's Implementation Guidance for the Technical Peer Review
Perform Peer Reviews   Process, dated October 1999, required that a peer review be conducted
Prior to Field Tests   prior to field tests of OST funded technologies. To address concerns of
                       external review groups such as the General Accounting Office and
                       National Research Council, the OST initiated an office-wide technical
                       peer review program. The objective of this program is to provide the

Page 3                                                                      Details of Finding
                           OST with uniform, independent, and unimpeachable technical
                           reviews on a timely basis, and to assess the scientific and
                           engineering merits of technology development activities. These
                           technical peer reviews provide an essential management tool in
                           determining the scientific and engineering merits of technologies and
                           systems in which the OST has placed its investments.
EM Sites Were Not          Although it was the OST's policy to conduct peer reviews prior to
Required to Obtain Peer    investing in field tests, the EM sites were not required to obtain
Reviews Unless OST Funds   reviews unless OST funds were used to pay for the field tests. In this
Were Used                  case, the Oak Ridge Operations Office and the Ohio Field Office
                           used closure funds rather than OST funds to field test PMRAM.
                           Thus, the EM sites did not request a peer review.

                           In addition, the Ohio Field Office inappropriately used OST funds
                           obtained for other approved OST projects to reimburse the cleanup
                           contractor for supporting the PMRAM activity at the FEMP. In
                           March 2000, the Ohio Field Office submitted a proposal to the OST,
                           to acquire funding for a suite of innovative technologies relating to
                           intrusive and non-intrusive characterization through concrete walls
                           and floors. PMRAM was not included in the suite of technologies
                           submitted by the Ohio Field Office. However, because the funding
                           was small and PMRAM was a characterization technology, the
                           Technical Program Officer believed it was within his discretion to
                           use these funds and did not request Headquarters' approval.
                           According to OST policy, Headquarters' approval is required prior to
                           using OST funds on technologies that have not been approved.

Unnecessary Costs Were     The Department incurred $408,750 in avoidable costs for field
Incurred                   testing the PMRAM technology. The Oak Ridge Operations Office
                           spent $218,750 at the ETTP, and the Ohio Field Office spent
                           $190,000 at the AEMP and FEMP. The Department's EM cleanup
                           contractors retained the majority of the Department's payments for
                           the field tests. For example, the Oak Ridge Operations Office paid
                           $99,455 to the subcontractor that did the actual mapping, and
                           $119,300 to Bechtel Jacobs Company LLC for its support of the
                           subcontractor.

                           OST was not aware of the sites' PMRAM activities until the Office
                           of the Deputy Assistant Secretary for Site Closure requested OST
                           funding for the PMRAM technology in FY 2000. At that time, the
                           OST performed a peer review using a team of experts in the fields of
                           hydrology, geology, chemistry, and engineering. The review team


Page 4                                                                       Details of Finding
                      concluded that the PMRAM technology did not appear plausible and
                      did not allow for a scientifically based evaluation. In addition,
                      information was not provided to the review panel to enable them to
                      understand the physical phenomena involved in PMRAM. Further,
                      the panel's report states that no useful information was developed
                      during the three field demonstrations, and the PMRAM technology
                      appeared inadequate as a site-characterization tool. The panel
                      concluded that PMRAM should not be considered for further
                      deployment. Finally, the Director of EM's Office of Technology
                      Application stated that if the peer review had been conducted first,
                      the OST would not have funded the field work for the PMRAM
                      based on the peer review results.

RECOMMENDATIONS       We recommend that the Assistant Secretary for Environmental
                      Management establish policy to require that EM sites:

                         1. Coordinate with the OST prior to investing in unproven
                            cleanup technologies to determine the appropriate extent and
                            type of review;

                         2. Use OST funds only for technologies that have been
                            approved by the OST; and,

                         3. Discontinue field-testing of the PMRAM technology.


MANAGEMENT REACTION   Management agreed with the audit findings and recommendations
                      and agreed to implement corrective actions. Further, management
                      stated that field testing of the PMRAM technology has been
                      discontinued.
AUDITOR COMMENTS      Management's comments were responsive to the audit report.




Page 5                                              Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from October 19, 2001, to November 16,
              2001, at Department of Energy Headquarters in Washington, D.C.
              Additionally, we obtained information regarding Passive Magnetic
              Resonance Anomaly Mapping (PMRAM) technology from the Oak
              Ridge Operations Office, East Tennessee Technology Park, Ohio Field
              Office, Ashtabula Environmental Management Project, and Fernald
              Environmental Management Project. The scope of the audit included
              costs incurred for researching the PMRAM technology from January
              2000 to September 2001.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed the Department's Implementation Guidance for the
                     Technical Peer Review Process, Version 3.0;

                 •   Analyzed Technical Peer Review Report, Passive Magnetic
                     Resonance Anomaly Mapping, prepared by the American
                     Society of Mechanical Engineers;

                 •   Reviewed Department contracts for PMRAM demonstration;
                     and,

                 •   Interviewed Departmental and contractor personnel regarding
                     the PMRAM technology.

              We conducted the audit according to generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Accordingly, we assessed the
              significant internal controls related to the management of the PMRAM
              activities. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. Computer processed data was not used, and
              therefore, we did not perform any tests on the data. In addition, we
              reviewed the implementation of the Government Performance and
              Results Act of 1993. While no specific performance measures were
              established for PMRAM, the Department's Fiscal Year 2001 Strategic
              Plan emphasizes the importance of peer reviews, scientific advisory
              committees, and the advancement of science and technology in order to
              solve currently intractable cleanup problems.

              The Office of Environmental Management waived the exit conference
              on January 2, 2002.


Page 6                                                      Scope and Methodology
Appendix 2




Page 7       Management's Comments
                                                                              IG Report No.: DOE/IG-0539

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
